No.

IN THE

SUPREME COURT OF THE UNITED STATES
MARIO ALLAN MONTANO, Petitioner,
v.
KAMESHIA D. GANT, Respondent.
PROOF OF SERVICE
I, Mario Allan Montano, do swear or declare that on this date, November 13, 2020, as
required by Supreme Court Rule 29 1 have served the enclosed LETTER TO RESPONDENT,
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF
CERTIORARI, APPENDIX, THIS PROOF OF SERVICE on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:
Honorable Kameshia D. Gant, Courtroom 2A, Oakland County Courthouse, 1200 N. Telegraph
Rd., Dept. 404 , Pontiac, MI 48341.
1 declare under penalty of perjury that the foregoing is true and correct.
Executed on November 13, 2020.
\

Mario Allan Montano
Petitioner

